           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     THE SOCIAL SECURITY
      ADMINISTRATION’S
      COMPLIANCE WITH
  THE EMPLOYEE RETIREMENT
    INCOME SECURITY ACT

   October 2004   A-14-04-24099




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY

MEMORANDUM


Date:   October 14, 2004                                                   Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: The Social Security Administration’s Compliance with the Employee Retirement Income
        Security Act (A-14-04-24099)


        OBJECTIVES
        Our objectives were to: (1) determine how well the Social Security Administration (SSA)
        is complying with provisions of the Employee Retirement Income Security Act (ERISA),
        and (2) offer cost-effective recommendations to enhance SSA’s processing of this
        workload.

        BACKGROUND
        Congress enacted the ERISA in 1974 as a result of concerns that funds of private
        pension plans were being mismanaged and abused. ERISA and the Internal Revenue
        Code require more than 1 million private pension, welfare and fringe benefit plan
        administrators to file Form 5500, Annual Return/Report of Employee Benefit Plan, with
        the Internal Revenue Service (IRS) annually.1 This report includes Schedule SSA,
        Annual Registration Statement Identifying Separated Participants With Deferred Vested
        Benefits. The IRS is responsible for sharing information about certain accrued
        employee benefits reported by private pension plans with SSA to enable SSA to provide
        notice to potential private pension beneficiaries when they apply for Social Security
        benefits. In addition, the IRS provides to SSA quarterly electronic Form 5500 updates
        that reflect changes to pension plan administrators. Also, the Pension Benefit Guaranty
        Corporation (PBGC) provides SSA with quarterly electronic updates when PBGC
        assumes responsibility for certain insolvent plans.




        1
            See 26 United States Code Annotated (USCA) § 6057 (2004).
Page 2 – The Commissioner

SSA’s Responsibilities

SSA is responsible under ERISA and the Social Security Act to take the information it
obtains from the IRS and the PBGC and notify certain individuals that they may be
eligible for deferred vested benefits from private pension plans. SSA is responsible for
notifying each new Social Security or Medicare claimant for whom it has pension benefit
information.2 This information can be used by the claimant to claim any pension
benefits due from the pension plan.

SSA’s Processing of the Data

IRS initially receives all ERISA documents from pension plan administrators. ERISA
documents may be filed electronically or on paper. IRS3 then scans and converts paper
documents that follow a specified format to electronic files. These electronic files are
sent to SSA along with electronically filed forms using the Department of Labor’s (DOL)
ERISA Filing Acceptance System (EFAST). EFAST was created by DOL, IRS, and
PBGC to streamline the process for filing and processing the Form 5500s. However,
until recently, SSA had no means to process the electronic records.

IRS sends all paper documents that cannot be scanned (i.e., paper documents that do
not follow the specified format) to SSA’s Wilkes-Barre Data Operations Center
(WBDOC) in Pennsylvania for manual processing. If the paper documents contain
legible and complete individual records, WBDOC personnel key the records into SSA’s
ERISA database. The database files are forwarded to SSA’s Office of Systems in
Headquarters to be incorporated into the ERISA notice job stream, which result in
ERISA notices that are sent to potential pension plan beneficiaries. If the paper
documents that WBDOC receives contain illegible or incomplete records, they are not
processed and entered into the ERISA database and are instead sent to Headquarters.




2
  42 USCA § 1320b-1; 20 Code of Federal Regulations 422.122(a).
3
  Under a contractual agreement with IRS, DOL scans the documents and converts them to electronic
data records, which are then forwarded to SSA. Although this process is being performed by DOL, the
primary responsibility for obtaining the documents and providing legible and complete data remains with
the IRS.
Page 3 – The Commissioner
                                              The ERISA Process
                                  IRS Sends Forms to SSA for    SSA May or May Not Be
         Forms Are Received By
                                          Processing             Able to Process the
                  IRS
                                                                     Documents




             Scannable
        Paper Documents Are
        Converted to Electronic
               Records
                                                                    Some of These
                                                                    Records Are Not
                                    Electronic Records Are             Processed
                                   Received at Headquarters       (The current system
                                                                    only processes
                                                                  beneficiary records)
          Electronically Filed
              Documents


                                                                    If Legible, and
                                                                                         Processing Results in
                                                                  Complete, They are     Paper Notices Sent to
                                                                   Manually Entered         Potential Future
                                                                   and Processed at          Pension Plan
                                                                                             Beneficiaries
             Unscannable               Unscannable Paper                WBDOC
         Paper Documents Are              Documents
             Sent to SSA            Are Received at WBDOC

                                                                     If Illegible, or
                                                                 Incomplete, They Are
                                                                  Not Processed and
                                                                      Are Sent to
                                                                     Headquarters




RESULTS OF REVIEW
SSA has complied with some of the requirements of ERISA by processing the paper
Schedules SSA (Schedules) received at WBDOC, and by generating and issuing
notices using that information. However, SSA cannot fulfill all of its responsibilities
under ERISA because (1) a system to process quarterly electronic ERISA records for
employer changes is not fully operational, and (2) paper Schedules received on behalf
of IRS sometimes contain incomplete and illegible data. Additionally, internal controls
can be strengthened to reduce the risk of error or fraud, and to safeguard SSA’s
business process investment.

SSA Is Making Progress by Processing Electronic ERISA Records

Until recently, SSA had been unable to meet many of its responsibilities under ERISA,
since it began receiving electronic Schedules via DOL’s EFAST in December 2000.
EFAST was created by DOL, IRS, and PBGC to streamline the process for filing and
processing the Form 5500s. However, SSA was unable to process these EFAST
records until June 2004 because there was no computerized system to process them.
Since there was no system, SSA had a backlog of 8.87 million unprocessed EFAST
records as of February 2004.4 The EFAST records include both potential beneficiary
records, as well as changes to pension plan administrators.


4
 Of the 8.87 million unprocessed EFAST records, 2.96 million are beneficiary records, and 5.91 million
are potential pension plan administrator changes. SSA noted that an undetermined amount of the
5.91 million pension plan administrator changes may be duplicates.
Page 4 – The Commissioner

As a result of the unprocessed records, numerous individuals were not notified timely of
their potential entitlement to receive deferred vested benefits from private pension
plans, or they may have received notices containing inaccurate pension plan
administrator information. For example, if only 1 percent of the 2.96 million
unprocessed beneficiary records would result in an ERISA notice, then approximately
29,600 individuals would not have been informed timely of their potential entitlement to
approximately $287.5 million in annual benefits.5

In September 2003, the Office of Systems received permission from the Commissioner
to develop and implement an automated system to process these records. Shortly
thereafter, the Agency initiated the ERISA project to develop a system for processing
the backlog of EFAST records. The ERISA Project Team identified many of the ERISA
issues outlined in our report. Furthermore, in many cases, the Project Team has been
proactive in developing plans to address issues discussed in this report. While this
report was being prepared, SSA implemented a system to process pension plan
beneficiary records in June 2004, and processed the existing backlog. However, it has
not yet determined the additional functionality needed to process the electronic records
that track changes in pension plan administrators. If plan administrator information is
not properly updated, notices could be sent with incorrect pension plan information.
These types of incorrect notices may result in inquiries by notice recipients, which SSA
must research and resolve. Implementation of this system could reduce the number of
unnecessary public inquiries. SSA should continue with its plan for evaluating whether
these records need to be processed, and if so, then developing and implementing the
system for processing EFAST records in accordance with SSA’s established systems
development lifecycle guidelines.

DOL recently initiated the EFAST 2 project, which aims to further streamline the EFAST
process through the use of the Internet. Even though SSA is a major participant in the
ERISA process, the Agency has not formally been invited to participate in this important
interagency project. If SSA does not participate in this project, the process for sending
information via the Schedules may not be in a proper format or may not contain all
relevant information that SSA needs to process these documents. Also, SSA may have
to build and/or modify existing software to accommodate the EFAST 2 data, if the
system is developed without SSA’s input. Therefore, SSA needs to participate in this
endeavor to ensure that SSA’s requirements for processing ERISA data are adequately
met.




5
  Based on Department of Labor’s (DOL) data http://www.dol.gov/ebsa/publications/redbook/d_1.htm, the
average pension annuity amount in 1994 was $9,714. DOL staff indicated that 1994 data is the most
recent available. As a result, our projection is conservative.
Page 5 – The Commissioner


Paper Documents Contain Incomplete and Illegible Data

For the period October 2003 through March 2004,6 WBDOC processed approximately
9.38 million hard copy (paper) beneficiary records from the IRS via the Schedules, and
expended 48.2 work years (or approximately $2.1 million7) processing these records.
The legible and complete records on the paper documents were manually entered into
SSA’s ERISA database for processing.

SSA personnel estimated that between 25-50 percent of the paper records were
incomplete and illegible and, therefore, could not be processed without additional work
to obtain complete and legible data. A Memorandum of Understanding (MOU) between
SSA and IRS requires IRS to send SSA complete and legible data, and IRS agrees to
correspond with the plan sponsors for corrections when the data is incomplete or
illegible. However, rather than send incomplete and illegible records back to IRS for
correction, WBDOC processed the records after contacting the plan administrators to
obtain complete and legible data.

The Agency was unable to provide data to estimate the personnel cost or amount of
time spent contacting plan administrators to obtain complete and legible data. As a
result, we cannot estimate the part that could have been saved. SSA should return
incomplete and illegible records to IRS for correction in accordance with the MOU.

Furthermore, when WBDOC ultimately cannot obtain complete and legible data, it does
not process the records and, instead, sends them to the Office of Systems. In past
years, Office of Systems’ personnel have discarded some of these records rather than
return them to IRS for the records to be corrected. The Office of Systems currently has
several stacks of unprocessed documents that WBDOC could not process. Based upon
WBDOC’s methodology (see Appendix B), we estimated, as of March 12, 2004, the
documents that could not be processed represented approximately 85,540 records. As
a result, the individuals on these records may not be informed of their potential eligibility
for deferred pension plan benefits when they initially file for Social Security or Medicare
benefits.

During our audit, SSA informed IRS of the incomplete and illegible documents and
requested a name and address to return them. IRS stated it had no procedure or staff
in place to process the documents. Consequently, SSA was unable to return the
documents to IRS for correction. Furthermore, not only has IRS asked SSA to
renegotiate the existing MOU, it has asked SSA for funding to perform duties related to
the Schedules SSA previously performed without cost to SSA. SSA needs to determine
what its responsibilities are under ERISA regarding these incomplete and illegible

6
  We did not estimate the annual number of ERISA records that were processed for several reasons:
(1) the ERISA workload is seasonal in nature; (2) the quantities vary from year to year; and (3) the
workload is only processed from October through January of each year.
7
  According to SSA, the Agency expended 48.2 work years in FY 2004 processing the ERISA workload,
at a cost of $43,400 per work year.
Page 6 – The Commissioner

documents. SSA also needs to determine what its obligations are concerning the
existing MOU with IRS regarding these documents.

No Interagency Agreement with PBGC

PBGC was established by ERISA in 1974 to assume responsibility for certain insolvent
plans. PBGC forwards a quarterly file to SSA, so that SSA’s database can be updated
to reflect PBGC as administrator for those plans. However, SSA has no interagency
agreement with PBGC to define both parties’ roles and responsibilities. The Agency
could not provide an explanation as to why it did not implement an interagency
agreement with PBGC. As a result, SSA cannot ensure that PBGC consistently fulfills
its obligations to SSA under ERISA. Without such an agreement, PBGC could change
the way it handles the ERISA data it provides to SSA. SSA often implements
interagency agreements when there is a shared responsibility to receive and/or provide
information with another agency. Additionally, because SSA has a systems investment
in this business process, it is good business practice to have a formal agreement in
place to define both parties’ responsibilities for processing the ERISA data. Therefore,
SSA should develop and implement an MOU with PBGC.

Programmer Access to ERISA Database

When an individual contacts SSA regarding a complex, inaccurate ERISA notice, the
inquiry is generally handled by an SSA ERISA analyst with the assistance of an ERISA
programmer in SSA's Office of Systems. In such cases, programmers can contact
pension plan administrators via telephone to obtain specific information regarding an
individual’s record in SSA’s ERISA database. If the record is incorrect, the programmer
then has the ability to change or delete the record in the ERISA database. We found
there is no audit trail or record of the transaction or appropriate compensating controls
over this process.8

If due care is not exercised to prohibit improper changes to the database, legal issues
may arise concerning an individual’s rights under ERISA. The Office of Management
and Budget’s (OMB) standards regarding segregation of duties9 require that key duties
and responsibilities are divided among different people to reduce the risk of error. Also,
OMB's principle of least privilege10 calls for agencies to restrict a user's access to the
minimum needed to perform his or her job duties. In addition, the issue of inappropriate
access to data files by programmers has also been part of the reportable condition11
8
  While these types of inquiries are not voluminous, on average, they occur several times per month, and
one inquiry could result in changes or deletions to multiple records in the database.
9
  Appendix III to Office of Management and Budget’s Circular No. A-130, Security of Federal Automated
Information Resources, Section 3(a)2(c).
10
   Id.
11
   A reportable condition is a significant deficiency in the design or operation of internal controls that could
adversely affect the Agency’s ability to meet the internal control objectives prescribed by OMB. The
Social Security Administration’s Fiscal Year 2003 Performance and Accountability Report included the
issue of application programmers having access to production data in the reportable condition concerning
information protection weaknesses.
Page 7 – The Commissioner

identified during SSA’s annual financial statement audit. Furthermore, the process to
make changes to the ERISA database is not formally documented in SSA’s policies and
procedures manual. SSA should ensure adequate controls are in place to prevent
programmers from improperly changing or deleting records contained in the ERISA
database, and SSA should document formal procedures for handling ERISA inquiries
from the public.

Formal Operating Procedures

Current operating procedures are outdated and do not address the procedures that
changed as a result of the June 2004 software implementation to process the electronic
records. The lack of formal operating procedures could result in inconsistent, inefficient,
and/or incorrect responses to public inquiries by SSA personnel. Therefore, SSA needs
to implement written operating procedures to adequately address the ERISA process,
including changes resulting from the June 2004 software implementation.

RECOMMENDATIONS
We recommend SSA:

1. Continue to develop and implement its system to process all electronic EFAST
   records as soon as practicable.

2. Formally participate on the development team for DOL’s EFAST 2 project.

3. Determine what its responsibilities are under ERISA and its obligations concerning
   the MOU with IRS regarding incomplete and illegible documents.

4. Develop and implement an MOU with PBGC to specify roles and responsibilities of
   both parties regarding the sharing of information.

5. Ensure adequate controls are in place to prevent improper changes or deletions of
   records in the ERISA database.

6. Document and implement formal procedures for the ERISA process, including the
   handling of ERISA inquiries from the public.
Page 8 – The Commissioner

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. The Agency had one substantive concern
regarding the estimate of work year savings which could not be accurately projected
due to the lack of available data. Therefore, we removed the work year estimation from
the report. The Agency also provided technical comments that we considered and
incorporated, where appropriate. The text of SSA's comments is included in
Appendix C. We commend SSA for its ongoing efforts to comply with ERISA.




                                                     S
                                                     Patrick P. O’Carroll, Jr.
                               Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                     Appendix A

Acronyms

 DOL       Department of Labor
 EFAST     ERISA Filing Acceptance System
 ERISA     Employee Retirement Income Security Act
 IRS       Internal Revenue Service
 MOU       Memorandum of Understanding
 OMB       Office of Management and Budget
 PBGC      Pension Benefit Guaranty Corporation
 SSA       Social Security Administration
 USCA      United States Code Annotated
 WBDOC     Wilkes-Barre Data Operations Center
                                                                         Appendix B

Scope and Methodology
To accomplish our objectives, we reviewed applicable policies, procedures, laws and
regulations related to the Employee Retirement Income Security Act (ERISA), and
ERISA systems development information. We interviewed SSA personnel in
Headquarters and at Wilkes-Barre Data Operations Center (WBDOC) in Wilkes-Barre,
Pennsylvania.

To estimate the quantity of unprocessed ERISA paper records maintained by the Office
of Systems, we weighed them using the postal scale located in SSA’s mail room. The
total weight of all the packages was 61.1 pounds. We then applied the estimating
methodology routinely used by WBDOC to estimate the number of ERISA records, as
follows:

          61.1 pounds @ 100 pages per pound = 6,110 pages
          6,110 pages x 14 records per page = 85,540 records

We performed our work between December 2003 and April 2004. We conducted our
review in accordance with generally accepted government auditing standards.

The data in this report was used to provide background information only and was not
deemed necessary to support findings and recommendations. Therefore, we did not
determine the reliability of that data, and any limitations of the data used in the context
of this assignment should not lead to an incorrect or unintentional conclusion.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM                                                                      34077-24-1226


           September 7, 2004                                                    Refer To: S1J-3

To:          Patrick P. O'Carroll, Jr.
             Acting Inspector General

From:        Larry W. Dye      /s/
             Chief of Staff

Subject:     Office of the Inspector General (OIG) Draft Report "The Social Security Administration's
             Compliance With the Employee Retirement Income Security Act" (A-14-04-24099)--
             INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “THE SOCIAL SECURITY ADMINISTRATION'S COMPLIANCE WITH
THE EMPLOYEE RETIREMENT INCOME SECURITY ACT”
(A-14-04-24099)


Thank you for the opportunity to review and comment on the draft report. Overall, we agree
with the report’s conclusions and recommendations. We are pleased that the review recognizes
our effort to comply with Employee Retirement Income Security Act (ERISA) requirements.
Our responses to the recommendations and suggested technical comments below provide
information or updated language on the actions we have taken or plan to take to move toward
fulfillment of all of our responsibilities under ERISA.

We have one substantive concern about the calculation of estimated savings related to processing
incomplete and/or illegible ERISA forms (page 5 of the report and Appendix B). The report
notes that the forms required additional work compared to forms that were complete and legible.
However, the estimate of the cost of processing this work assumes the same unit time as the
overall workload and then identifies all of the processing time associated with processing the
incomplete or illegible forms as the potential savings. As calculated, the estimate assumes this
represents the savings by concluding that these records should have been sent back to the
Internal Revenue Service (IRS) to be resolved. Since the records would ultimately have to be
processed after the incomplete and/or illegible fields are resolved, the actual savings are the time
and costs of only the Social Security Administration (SSA) work that would have been in
addition to the effort of processing other complete and legible records; i.e., the time we spent
resolving the incomplete and/or illegible fields. Additionally, because the report does not
provide information on how much additional time we spent to process records that are
incomplete or illegible, the potential savings cannot be estimated.

Recommendation 1

SSA should continue to develop and implement its system to process all electronic ERISA Filing
Acceptance System (EFAST) records as soon as practicable.

Response

We agree. The system to process the EFAST records was released on June 10, 2004. As of June
25, 2004, all of the backlogged files were processed and updated to our ERISA master file.
Phase II of ERISA EFAST is being considered by the Information Technology Advisory Board
for implementation in fiscal year 2005.

Recommendation 2

SSA should formally participate on the development team for Department of Labor’s (DOL)
EFAST 2 project.




                                                C-2
Response

We agree. We plan to work closely with DOL on the EFAST 2 project.

Recommendation 3

SSA should determine what its responsibilities are under ERISA and its obligations concerning
the memorandum of understanding (MOU) with IRS regarding incomplete and illegible
documents.

Response

We agree. Both IRS’s and SSA’s responsibilities regarding receiving incomplete and illegible
documents from IRS are contained in the existing MOU. Currently, our General Counsel (GC)
is evaluating the implications of IRS’s non-compliance with the existing MOU to identify a
possible resolution. Additionally, we are in the process of negotiating a new MOU with IRS and
the issue of incomplete forms processing will be addressed during those negotiations.

Recommendation 4

SSA should develop and implement an MOU with the Pension Benefit Guarantee Corporation
(PBGC) to specify roles and responsibilities of both parties regarding the sharing of information.

Response

We agree. The final version MOU between SSA and PBGC is currently being reviewed by our
GC.

Recommendation 5

Ensure adequate controls are in place to prevent improper changes or deletions of records in the
ERISA database.

Response

We agree. At the time of this review, OIG was evaluating the activity undertaken by our Office
of Systems programmers who were contacting pension plan administrators to obtain information
to change the database. We are aware of the need for guidelines on record changes and deletions
for the ERISA workload to ensure separation of duties and will address ERISA access control
issues as part of the Agency’s Standardized Security Profile Project.

Recommendation 6

Document and implement formal procedures for the ERISA process, including the handling of
ERISA inquiries from the public.




                                               C-3
Response

We agree. We have issued Program Operations Manual System instructions for Operations staff
(field offices and teleservice centers) regarding handling inquiries from the public. We are
currently developing procedures for our headquarters staff in the Division of Employer Services.
It should be noted that all of the procedures will include instructions for correcting the ERISA
database in an effort to ensure that controls are in place to prevent improper changes or deletions
of records as they relate to recommendation 5 above.

[In addition to the items listed above, SSA provided technical comments which have
been addressed in this report, where appropriate.]




                                                C-4
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Kitt Winter, Director (410) 966-9702

    Albert Darago, Audit Manager (410) 965-9710

Acknowledgments

In addition to those named above:

    Anita McMillan, Senior Systems Auditor

    Deborah Kinsey, Senior Systems Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-3218.
Refer to Common Identification Number A-14-04-24099.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
